                                   Office of Inspector General
                                  Corporation for National and
                                           Community Service




                            AUDIT OF
CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
       CORPORATION GRANTS AWARDED TO
   LUTHERAN COMMUNITY SERVICES NORTHWEST

                OIG REPORT NUMBER 10-07




                          Prepared by:

               Office of Inspector General
                Washington, DC 20525




This report was issued to Corporation management on March 9, 2010. Under the laws
and regulations governing audit follow-up, the Corporation is to make final management
decisions on the report’s findings and recommendations no later than September 9, 2010,
and complete its corrective actions by March 9, 2011. Consequently, the reported
findings do not necessarily represent the final resolution of the issues presented.
                                NATIONAL&:
                                COMMUNITY
                                SERVICEt'f.Y.x=
                       OFFICE OF INSPECTOR GENERAL

                                    March 9, 2010


TO:           Angela Roberts, Acting Director of Senior Corps
              Lois Nembhard, Acting Director of AmeriCorps State and National
              Pe~ ~~~~n.berry, Director, Offic of Grants Management

FROM:
               ~*A                         p
              Stuart AxenfelO, Assistan Inspector General for Audit

SUBJECT:      OIG Report 10-07, Audit of Corporation for National and Community
              Service Senior Corps Grants Awarded to Lutheran Community Services
              Northwest (LCSNW).

Attached is the final report for the above-noted OIG audit of Corporation grants award¢d
to LCSNW. This audit was performed by OIG staff in accordance with generally
accepted government auditing standards.

The purpose of this audit was to examine the grant costs incurred by LCSNW to
determine whether the amounts incurred and claimed are allowable under the grant
agreement. In addition, we determined if LCSNW had adequate procedures and controls
that are in compliance with Federal laws, regulations and award conditions.

Under the Corporation's audit resolution policy, a final management decision on the
findings in this report is due by September 9, 2010. Notice of final action is due by
March 9, 2011. If you have any questions pertaining to this report, please contact me at
(202) 606-9360, or Richard Samson, Audit Manager, at (202) 606-9380.


Enclosure

cc:    Roberta Nestaas, LCSNW President/CEO
       William Anderson, Acting Chief Financial Officer
       Rocco Gaudio, Deputy Chief Financial Officer for Grants and FFMC
       Claire Moreno, Senior Grants Officer
       Wendell West, Senior Grants Management Specialist
       Kirsten Franklin-Temple, Acting Washington State Director
       Stephanie Wrightsman, Oregon State Program Specialist
       Bridgette Roy, Auditor Liaison and Administrative Assistant




             1201 New York Avenue, NW *          *
                                          Suite NW   Washington, DC 20525
                202-606-9390 * Hotline: 800-452-8210* www.cncsoig.gov

                 Senior Corps * AmeriCorps * Learn and Serve America
                                    OFFICE OF INSPECTOR GENERAL
                                               AUDIT OF
                           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                        GRANTS AWARDED TO
                              LUTHERAN COMMUNITY SERVICES NORTHWEST


                                                           CONTENTS

Section                                                                                                                          Page

Executive Summary .......................................................................................................         1

Summary of Results ......................................................................................................         1

Summary of Questioned Costs.......................................................................................                1

Results of Audit .............................................................................................................    1

Audit Objective, Scope, and Methodology ...................................................................... 11

Compliance with Laws and Regulations ......................................................................... 12

Internal Control over Financial Reporting........................................................................ 12

Background .................................................................................................................... 13

Exit Conference.............................................................................................................. 13



Appendices

A: Lutheran Community Services Northwest’s Response to Audit Report
B: Corporation’s Response to Audit Report
                                    EXECUTIVE SUMMARY


The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), performed an audit of Corporation grants awarded to Lutheran Community
Services Northwest (LCSNW). The purpose of the audit was to determine whether the costs
claimed by LCSNW for its Senior Companion Program (SCP), Retired and Senior Volunteer
Program (RSVP), and AmeriCorps program were allowable, allocable, and in compliance
with applicable laws, regulations, and terms and conditions of the grants.

SUMMARY OF RESULTS

We found the following areas in which SCP, RSVP, and AmeriCorps program requirements
were not met by LCSNW:

SCP
  1. Volunteers did not have physical examinations performed prior to service.

   2. Volunteers did not have income verifications performed prior to service.

   3. Volunteers did not have criminal background checks performed prior to service.

   4. Volunteers did not have volunteer assignment plans.

   5. In some instances, volunteers did not serve a minimum of 15 hours during a week.

   6. LCSNW did not maintain proper documentation for volunteer stations.

RSVP
  7. Volunteers did not complete and sign volunteer contracts.

AmeriCorps
  8. Member service hours did not meet the minimum amount of hours required to
      receive an education award.

SUMMARY OF QUESTIONED COSTS

          Program        Finding     Questioned Costs       Questioned Ed Awards
         AmeriCorps         8               $0                     $14,450

RESULTS OF AUDIT

In our opinion, except for the questioned cost and compliance issues described in the
results of audit, costs claimed for the grants are in conformity with applicable OMB circulars
and award terms and conditions.




                                            1
1. SCP volunteers did not have physical examinations performed prior to service.

Seven of 15 SCP volunteers whose files we reviewed did not have a physical examination
performed prior to service and during the eligibility determination process, as required by
Corporation regulations.

45 C.F.R. §2551.41 Who is eligible to be a Senior Companion?, states:

   a. To be a Senior Companion, an individual must:

               *      *       *

           2. Be determined by a physical examination to be capable, with or without
              reasonable accommodation, of serving adults with special needs without
              detriment to either himself/herself or the adults served.

LCSNW officials stated that physical examinations for these seven SCP volunteers took
longer than anticipated, and they did not want the physical examinations requirement to
hinder the start of the members’ service.

The lack of the physical examination prior to the start of service could put the volunteers and
the adults served at risk. We did not question the volunteer stipends for these seven
members because the results of physical examinations, conducted after they began service,
did not disqualify them.

Recommendation

1. We recommend that the Corporation require LCSNW to receive physical examination
   results for all SCP volunteers prior to their start of service.

LCSNW’s Response

LCSNW concurs with the audit finding and recommendation. LCSNW implemented a new
operating procedure to ensure physical examinations are performed and remain on file for
all volunteers prior to service.

Corporation’s Response

LCSNW has implemented a new operating procedure to ensure physical examinations are
performed and on file for all volunteers prior to service. LCSNW action is responsive to the
audit finding and recommendation, but LCSNW must issue a written operating procedure
prior to the planned April 2010 oversight review by Corporation staff.

OIG Comments

The planned actions proposed by LCSNW in its response meet the intent of the
recommendation and address the finding.




                                            2
2. SCP volunteers did not have income verifications performed prior to service.

Six of 15 SCP volunteers whose files we reviewed did not have an income verification
performed prior to service, as required by Corporation regulations.

45 C.F.R. §2551.41 Who is eligible to be a Senior Companion?, states:

   a. To be a Senior Companion, an individual must:

       *      *      *

           4. In order to receive a stipend, have an income that is within the income
              eligibility guidelines specified in this subpart D.

45 C.F.R. §2551.43 What income guidelines govern eligibility to serve as a stipended Senior
Companion?, states:

   a. To be enrolled and receive a stipend, a Senior Companion cannot have an annual
      income from all sources, after deducting allowable medical expenses, which exceeds
      the program’s income eligibility guideline for the State in which he or she resides.
      The income eligibility guideline for each State is the higher amount of either: 1) 125
      percent of the poverty line set forth in 42 U.S.C. § 9902(2); or 2) 135 percent of the
      poverty line, in those primary statistical areas (PMSA), metropolitan statistical areas
      (MSA) and non-metropolitan counties identified by the Corporation as being higher in
      cost of living, as determined by application of the Volunteers in Service to America
      (VISTA) subsistence rates. . . .
   b. For applicants to become stipended Senior Companions, annual income is projected
      for the following 12 months, based on income at the time of application. For serving
      stipended Senior Companions, annual income is counted for the past 12 months.
      Annual income includes the applicant or enrollee’s income and that of his/her
      spouse, if the spouse lives in the same residence. Sponsors shall count the value of
      shelter, food, and clothing, if provided at no cost by persons related to the applicant,
      enrolled, or spouse.
   c. Allowable medical expenses are annual out-of-pocket medical expenses for health
      insurance premiums, health care services, and medications provided to the
      applicant, enrollee, or spouse which were not and will not be paid by Medicare,
      Medicaid, other insurance, or other third party payor, and which do not exceed 50
      percent of the applicable income guideline.
   d. Applicants whose income is not more than 100 percent of the poverty line shall be
      given special consideration for enrollment.
   e. Once enrolled, a Senior Companion shall remain eligible to serve and to receive a
      stipend so long as his or her income, does not exceed the applicable income
      eligibility guideline by 20 percent.

LCSNW officials stated that they did not know why income verifications were not performed
for these volunteers prior to service. They noted that the SCP Director employed during the
audit period is no longer employed by LCSNW.




                                            3
By not requiring income verification for SCP volunteers prior to their start of service, LCSNW
may have had volunteers that were ineligible to serve in the program. We did not question
the volunteers’ stipends because the results of income verifications, performed after they
began service, upheld their eligibility.

Recommendation

2. We recommend that the Corporation require LCSNW to receive income verification for
   all SCP volunteers prior to their start of service.

LCSNW’s Response

LCSNW concurs with the audit finding and recommendation. LCSNW implemented a new
operating procedure to ensure income eligibility is completed, verified, reviewed, and on file
for all volunteers prior to service.

Corporation’s Response

LCSNW has implemented a new operating procedure to ensure income eligibility is
completed, verified, reviewed by program staff, and on file for all volunteers prior to service.
LCSNW must issue a written operating procedure prior to the planned April 2010 oversight
review by Corporation staff.

OIG Comments

The planned actions proposed by LCSNW in its response meet the intent of the
recommendation and address the finding.

3. SCP volunteers did not have criminal background checks performed prior to
   service.

Two of 15 SCP volunteers reviewed did not have a criminal background check performed
prior to service, as required by Corporation regulations.

45 C.F.R. §2551.27 What two search components of the National Service Criminal History
Check must I satisfy to determine an individual’s suitability to serve in a covered position?,
states:

   Unless the Corporation approves an alternative screening protocol, in determining the
   suitability of an individual to serve as a Senior Companion or as a covered grant-funded
   employee, you are responsible for ensuring, unless prohibited by State law, that you
   conduct the document a National Service Criminal History Check, which consists of the
   following two search components:
        a. State criminal registry search. A search (by name or fingerprint) of the State
            criminal registry for the State in which the program operates and the State in
            which the individual resides at the time of application; and
        b. National Sex Offender Public Registry. A name-based search of the Department
            of Justice (DOJ) National Sex Offender Public Registry (NSOPR).




                                             4
LCSNW officials stated that criminal background checks were performed by volunteer
stations during the audit period and they did not know why criminal background checks were
not performed for these members prior to service. They noted that the SCP Director
employed during the audit period is no longer employed by LCSNW.

By not requiring criminal background checks for SCP volunteers prior to their start of
service, the adults served could be at risk. We did not question stipends because the
results of criminal background checks, performed after the volunteers began service, upheld
their eligibility.

Recommendation

3. We recommend that the Corporation require LCSNW to receive criminal background
   checks for all SCP volunteers prior to their start of service.

LCSNW’s Response

LCSNW concurs with the audit finding and recommendation. LCSNW implemented a new
operating procedure to ensure all volunteers have a criminal background check completed
through their agency process, results are reviewed, and documents are on file for all
volunteers prior to service.

Corporation’s Response

The Corporation agrees with the intent of the recommendation. LCSNW has implemented a
new operating procedure to ensure criminal background checks are performed, results are
reviewed and on file for all volunteers prior to service. LCSNW must issue a written
operating procedure prior to the planned April 2010 oversight review by Corporation staff.

OIG Comments

The planned actions proposed by LCSNW in its response meet the intent of the
recommendation and address the finding.

4. SCP volunteers did not have volunteer assignment plans.

Ten of 15 SCP volunteers reviewed did not have a volunteer assignment plan developed by
the volunteer stations during the audit period. During fieldwork, the newly hired SCP
manager informed the OIG that assignment plans were being developed for all SCP
volunteers. We reviewed the current assignment plans and determined that they are in
compliance with SCP requirements.

45 C.F.R. §2551.72 Is a written volunteer assignment plan required for each volunteer?,
states:

   a. All Senior Companions performing direct services to individual clients in home
      settings and individual clients in community-based settings, shall receive a written
      volunteer assignment plan developed by the volunteer station that:
      1. Is approved by the sponsor and accepted by the Senior Companion;
      2. Identifies the client(s) to be served;



                                           5
      3. Identifies the role and activities of the Senior Companion and expected outcomes
           for the client(s);
      4. Addresses the period of time each client is expected to receive such services;
           and
      5. Is used to review the status of the Senior Companion’s services in working with
           the assigned client(s), as well as the impact of the assignment on the client9s).
   b. If there is an existing plan that incorporates paragraphs (a)(2), (3), and (4) of this
      section, that plan shall meet the requirement.
   c. All Senior Companions serving as volunteer leaders shall receive a written volunteer
      assignment plan developed by the volunteer station that:
      1. Is approved by the sponsor and accepted by the Senior Companion;
      2. Identifies the role and activities of the Senior Companion and expected
           outcomes;
      3. Addresses the period of time of service; and
      4. Is used to review the status of the Senior Companion’s services identified in the
           assignment plan, as well as the impact of those services.

LCSNW officials stated that client plans were compiled, instead of volunteer assignment
plans, by the former SCP Director during the audit period. Client plans are plans written for
the client, which is not a SCP requirement.

By not maintaining volunteer assignment plans, volunteer duties/responsibilities are not
properly documented. Program staff and the volunteers may not have a complete
understanding of the service activity.

Recommendation

4. We recommend that the Corporation verify that LCSNW has developed written volunteer
   assignment plans for all SCP volunteers and that these plans adhere to program
   requirements.

LCSNW’s Response

LCSNW concurs with the audit finding and recommendation. LCSNW implemented a new
operating procedure to ensure the development of written volunteer assignment plans for all
SCP volunteers that adhere to program requirements.

Corporation’s Response

LCSNW has implemented a new operating procedure to ensure written volunteer
assignment plans are developed for all SCP volunteers in compliance with program
requirements. The Corporation will verify adequate training has been conducted and
confirm corrective action is complete as part of the planned April 2010 oversight review.

OIG Comments

The planned actions proposed by LCSNW in its response meet the intent of the
recommendation and address the finding.




                                            6
5. In some instances, SCP volunteers did not serve a minimum of 15 hours during a
   week.

Seven of 15 SCP volunteers reviewed had instances where they did not serve a minimum of
15 hours during a week.

45 C.F.R. §2551.51 What are the terms of service of a Senior Companion?, states that “[a]
Senior Companion shall serve a minimum of 15 hours per week and a maximum of 40 hours
per week. A Senior Companion shall not serve more that 2088 hours per year. Within these
limitations, a sponsor may set service policies consistent with local needs.”

LCSNW officials stated that it had difficulty convincing volunteers to commit to 15-hour
weeks. LCSNW also stated that the former SCP Director did not strictly enforce the “15-
hour” requirement.

Volunteers working less then the 15 hour a week are not in compliance with program
requirements and as a result the service provided may be ineffective.

Recommendation

5. We recommend that the Corporation require LCSNW to enforce the SCP weekly
   minimum service hour requirement of 15 hours.

LCSNW’s Response

LCSNW concurs with the audit finding and recommendation. LCSNW implemented a new
operating procedure to closely monitor volunteer hours and those not serving a minimum of
15 hours during a week will have the reason documented in their volunteer file

Corporation’s Response

LCSNW has implemented a new operating procedure to ensure volunteer hours are
monitored to enforce the 15-hours requirement. The Corporation discussed the corrective
action plan with LCSNW and finds the action responsive to the audit finding and
recommendation.

OIG Comments

The planned actions proposed by LCSNW in its response meet the intent of the
recommendation and address the finding.

6. LCSNW did not maintain proper documentation for SCP volunteer stations.

LCSNW did not maintain documentation for volunteer stations that adheres to program
requirements. It only maintained Memorandum of Understanding for each volunteer station.
We did not find any evidence of volunteer assignment plans, Letter of Agreements for senior
companions assigned in-home, orientation and in-service training, evaluations, and
recognition.




                                           7
45 C.F.R. §2551.62 What are the responsibilities of a volunteer station?, states:

   A volunteer station shall undertake the following responsibilities in support of Senior
   Companion volunteers:
      a. Develop volunteer assignments that meet the requirements specified in §2551.71
          through §2551.72, and regularly assess those assignments for continued
          appropriateness.
      b. Select eligible clients for assigned volunteers.
      c. Develop a written volunteer assignment plan for each client that identifies the role
          and activities of the Senior Companion and expected outcomes for the client
          served.
      d. Obtain a Letter of Agreement for Senior Companions assigned in-home. This
          letter must comply with all Federal, State and local regulations.
      e. Provide Senior Companions serving the station with:
          1. Orientation to the station and any in-service training necessary to enhance
               performance of assignments;
          2. Resources required for performance of assignments including reasonable
               accommodation; and
          3. Appropriate recognition.

LCSNW officials stated that they did not know why proper documentation was not
maintained for volunteer stations, noting that the SCP Director during the audit period is no
longer with LCSNW. The officials said they are now in the process of compiling all of the
necessary documentation for existing volunteer stations.

Without proper documentation of volunteer stations, LCSNW may have volunteers that are
not serving clients in the manner required by program requirements. In addition, volunteer
stations may not be fully aware of the program requirements.

Recommendation

6. We recommend that the Corporation ensure that LCSNW develops volunteer station
   documentation that adheres to program requirements.

LCSNW’s Response

LCSNW concurs with this audit finding and recommendation. LCSNW implemented a new
operating procedure to ensure that proper documentation for SCP volunteer stations is
maintained.

Corporation’s Response

The Corporation will obtain a written operating procedure; review the previously provided
associated documents for adequacy; and confirm corrective actions is completed during the
planned April 2010 oversight review by Corporation staff.

OIG Comments

The planned actions proposed by LCSNW in its response meet the intent of the
recommendation and address the finding.



                                            8
7. RSVP volunteers did not complete and sign volunteer contracts.

Volunteer contracts were not signed by RSVP volunteers stating that they have read the
RSVP handbook and will adhere to program requirements. LCSNW only require volunteers
to complete a volunteer application during the enrollment process. Volunteers are not
required to sign a contract prior to service.

45 C.F.R. §2553.41 Who is eligible to be a RSVP volunteer?, states:

   a. To be an RSVP volunteer, an individual must:
      1. Be 55 years of age or older;
      2. Agree to serve without compensation;
      3. Reside in or nearby the community served by RSVP;
      4. Agree to abide by all requirements as set forth in this part;
   b. Eligibility to serve as a RSVP volunteer shall not be restricted on the basis of formal
      education, experience, race, religion, color, national origin, sex, age, handicap or
      political affiliation.

LCSNW stated that RSVP requirements do not require that a volunteer sign a volunteer
contract, only the applications are completed when a volunteer signs up for the program.

Without RSVP volunteer contracts, there is no evidence the volunteers agree to adhere to
RSVP requirements and to serve without compensation.

Recommendation

7. We recommend that the Corporation require LCSNW to develop an RSVP contract for
   volunteers to sign, confirming that they agree to abide by RSVP requirements.

LCSNW’s Response

LCSNW concurs with the audit finding and recommendation. LCSNW implemented a new
operating procedure to ensure that RSVP volunteers confirm in writing that they agree to
abide by RSVP requirements.

Corporation’s Response

LCSNW has implemented a new operating procedure to ensure RSVP volunteers confirm in
writing that they agree to abide by RSVP requirements. The Corporation will obtain a
written operating procedure; review the previously provided associated documents for
adequacy and confirm corrective action is complete during the planned April 2010 oversight
review by Corporation staff.

OIG Comments

The planned actions proposed by LCSNW in its response meet the intent of the
recommendation and address the finding.




                                           9
8. AmeriCorps member service hours did not meet the minimum amount required to
   receive an education award.

LCSNW had a total of four AmeriCorps members during program year 2006-2007. A review
of timesheets for three of four AmeriCorps members showed they did not meet the required
amount of service hours to receive an education award. These three members were full-
time and therefore required to serve at least 1,700 hours to receive an award. Actual hours
per time sheets did not support the required 1,700 service hours for educational awards
earned by three members as follows:

Member #      WBRS Hours        Time Sheet Hours       Education Award      Accrued Interest
   1            1,700                1,683.5               $4,725                $275
   2            1,704                 1,560                 4,725                  -
   3            1,719                 1,508                 4,725                  -

LCSNW receives its AmeriCorps grant from the U.S. Committee for Refugees and
Immigrants (USCRI). LCSNW officials stated that they are a subgrantee of USCRI and their
responsibility is to ensure that the AmeriCorps members are serving the hours recorded on
their timesheets. Timesheets are then sent to USCRI, which pays the member’s living
allowance and also certifies that the member has completed the necessary service hours to
qualify for an education award.

2006 AmeriCorps Provisions, Section IV. AmeriCorps Special Provisions, Part J. Post
Service Education Awards, states:

       In order to receive a full education award, a member must perform the minimum
       hours of service as required by the Corporation and successfully complete the
       program requirements as defined by the Program. For example, if successful
       completion of a full-time program requires 1,800 service hours, members in that
       particular program are not eligible for an education award simply upon completion of
       1,700 hours. If a member is released from a Program for compelling personal
       circumstances, the member is eligible for a pro-rated education award based on the
       number of hours served, if it is at least 15% of the total required hours. Questions
       regarding authorized uses of the education award should be directed to the
       Corporation’s National Service Trust Office.

2006 AmeriCorps Provisions, Section IV. AmeriCorps Special Provisions, Part C. Member
Enrollment, states:

   2. AmeriCorps Members. The grantee must keep time and attendance records on all
      AmeriCorps members in order to document their eligibility for in-service and post-
      service benefits. Time and attendance records must be signed and dated both by
      the member and by an individual with oversight responsibilities for the member.

LCSNW officials stated that it is USCRI’s responsibility to determine whether a member
meets the minimum required service hours to receive an education award. USCRI stated
that it did not verify members’ hours by reviewing timesheets, but instead reviewed the time
and attendance database on the Corporation’s Web-Based Reporting System (WBRS).
Members would input their hours into WBRS once their supervisor approved their timesheet.




                                          10
We will question the three members’ education awards of $4,725 each. We will also
question one member’s accrued interest award of $275. The total amount questioned is
$14,450.

Recommendation

We recommend that the Corporation:

8a. recover the questioned education awards and accrued interest of $14,450.

8b. assuming LCSNW and USCRI receive another Corporation grant, it develops controls to
    ensure that member time is documented and approved and that only members who
    complete required service hours receive an education award.

LCSNW’s Response

LCSNW does not concur with the audit recommendation. LCSNW sent timesheets to
USCRI, which certified whether member service hour requirements were met. LCSNW does
not authorize education awards and issued no monies to AmeriCorps members. LCSNW will
work with the Corporation to ensure its responsibilities and practices, in regard to member
time, are in compliance with AmeriCorps requirements.

Corporation’s Response

The Corporation declined to accept the monetary recommendation until it has completed its
review of the agreement between LCSNW and USCRI, the timesheets for the questioned
members and the certification documents presented to the Trust.

If LCSNW decides to apply for an AmeriCorps grant directly, the Corporation will ensure
proper procedures are in place to result in compliant timekeeping practices and that
responsibilities for member certification for awards are clearly delineated. However,
LCSNW and USCRI, do not have active AmeriCorps grants with the Corporation..

OIG Comments

LCSNW and USCRI do not have active grants with the Corporation. Therefore, we are not
concerned with a corrective action plan. However, education awards and interest
forbearance related to these members questioned should be resolved by the Corporation.

AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether the costs claimed were allowable,
adequately supported, and charged in accordance with the terms of the grant and applicable
laws and regulations; and to determine whether LCSNW was in compliance with terms of
the grant and applicable laws and regulations related to financial management, volunteer
eligibility, terms of service, and volunteer station compliance.




                                          11
       The scope of this audit focused on transactions, events, and member information associated
       with the following SCP, RSVP, and AmeriCorps Grants:

 Program            Award No.             Audit Scope Period            Award          Claimed          No. of
                                                                       Amount            Costs        Volunteers
   SCP          07SCPWA001                09/30/07 – 03/31/09         $417,909         $293,565           62
  RSVP          05SRPWA004                01/01/07 – 12/31/07          $56,997         $52,957           616
  RSVP          05SRPOR002                01/01/07 – 12/31/07          $81,507          $81,507          447
  RSVP          08SRPWA003                01/01/08 – 06/30/09         $121,168         $91,473           718
  RSVP          08SRPOR001                01/01/08 – 06/31/09         $160,166         $124,142          515
AmeriCorps    04NDHDC0050007              10/01/06 – 09/30/07         $53,820          $53,820            4
  Totals                                                              $891,567         $697,464         2,362

       We conducted our audit in accordance with audit standards generally accepted in the United
       States of America and generally accepted government auditing standards. For SCP, we
       performed tests of costs incurred in Program Years 2007-2008 (September 30, 2007,
       through September 29, 2008) and 2008-2009 (September 30, 2008, through March 31,
       2009). For RSVP, we performed tests of costs incurred in Program Years 2007 (January 1,
       2007, through December 31, 2007), 2008 (January 1, 2008, through December 31, 2008),
       and 2009 (January 1, 2009, through June 30, 2009). For AmeriCorps, we performed tests
       of costs incurred in Program Year 2006-2007. We also performed tests of LCSNW’s
       financial management system to determine compliance with applicable laws and
       regulations. In addition, we performed tests of compliance with SCP, RSVP, and
       AmeriCorps regulations on volunteer eligibility, terms of service, and volunteer stations. We
       conducted our field work from September 2009 to November 2009.

       COMPLIANCE WITH LAWS AND REGULATIONS

       As part of obtaining reasonable assurance about whether financial schedules were free of
       material misstatements, we performed tests of compliance with certain provisions of laws,
       regulations, and awards, noncompliance with which could have a direct and material effect
       on determination of financial schedule amounts. Providing an overall opinion on compliance
       with these provisions was not an objective of our audit and, accordingly, we do not express
       such an opinion. Test results disclosed instances of noncompliance that are required to be
       reported under generally accepted government auditing standards. These are discussed in
       the Results of Audit section of this report.

       INTERNAL CONTROL OVER FINANCIAL REPORTING

       In planning and performing our audit, we obtained an understanding of the Commission’s
       internal control over financial reporting to determine audit procedures for the purpose of
       expressing our opinion on the financial schedules and not to provide assurance on internal
       control over financial reporting. We noted matters involving internal control over financial
       reporting and its operation, however, that we consider reportable conditions. Reportable
       conditions involve matters coming to our attention relating to significant deficiencies in the
       design or operation of internal control over financial reporting that, in our judgment, could
       adversely affect the Non-Profit’s ability to initiate, record, process, and report financial data
       consistent with assertions of management in the financial schedules. The reportable
       conditions are discussed in the Results of Audit section of this report.



                                                     12
A material weakness is a condition in which the design or operation of one or more of the
internal control elements does not reduce, to a relatively low level, the risk that
misstatements in amounts that would be material in relation to the financial schedules being
audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Our consideration of internal control over
financial reporting would not necessarily disclose all matters in the internal control structure
that might be reportable conditions and that are also considered material weaknesses. We
do not consider any findings to be material weaknesses.

BACKGROUND

The Corporation awards grants to assist in the creation of full-time and part-time national
and local community service programs. Senior Corps and AmeriCorps are two of the
Corporation’s three major service initiatives. The Corporation’s SCP provides grants to
qualified nonprofit organizations to engage persons age 60 and older, with limited incomes,
in providing assistance to adults with special needs so they may maintain their dignity and
independence. RSVP provides grants to qualified organizations to engage persons age 55
and older in providing assistance that meets critical community needs. AmeriCorps provides
grants to qualified organizations to engage persons age 17 and older in programs that
address educational, public safety, human, or environmental needs through national and
community service, and provides education awards to participants who successfully
complete their service. Individuals serving in LCSNW’s SCP, RSVP, and AmeriCorps
programs provided services to adults, adolescents, children, families, schools, businesses,
religious congregations, neighborhoods, and communities in Washington, Oregon, and
Idaho.

EXIT CONFERENCE

We conducted an exit conference with LCSNW and Corporation representatives on
December 15, 2009. Their responses to the draft report are included in the final report as
Appendices A and B, respectively. USCRI was also given the opportunity to respond to the
draft report, but declined to do so. In addition, we have included our summary of LCSNW’s
and the Corporation’s comments in this final report.

This report is intended solely for the use of the management of the Corporation, OIG,
LCSNW, and U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties. However, the report is a matter of public record and its
distribution is not limited.




                                            13
                   APPENDIX A

LUTHERAN COMMUNITY SERVICES NORTHWEST RESPONSE TO
                  AUDIT REPORT
~          •
 • Lutheran.                                 Lutheran Community Services Northwest's
                                                 Comments on Official Draft Report
   Communzty                                                   on the
   Services                                   Audit for Corporation Grants Awarded to
     Heafth • Justice   .   H ope
                                              Lutheran Community Services Northwest



Finding 1. SCP volunteers did not have physical examinations performed prior to
service.

Recommendation: The Auditor recommends that LCSNW receive physical examination
results for all SCP volunteers prior to the start of their service.

LCSNW's Response:
LCSNW concurs with the audit finding and recommendation. On July I, 2009, LCSNW
implemented a new operating procedure to ensure physical exams are performed and on file
for all volunteers prior to service. LCSNW utilizes a "Checklist of Materials Completed by
Senior Companions" (Attachment A) and a "File Checklist" (Attachment B), which are
completed by SCP and reviewed by program staff, to confirm initial documents are
completed and on file prior to service. Document dates are entered into the database for
tracking and monitoring. Documents in the file are also checked annually during peer case
file reviews using the "File Checklist."


Finding 2. SCP volunteers did not have income verifications performed prior to
service.

Recommendation: The Auditor recommends that LCSNW receive income verification for
all SCP Volunteers prior to their start of service.

LCSNW's Response:
LCSNW concurs with the audit finding and recommendation. On July I, 2009, LCSNW
implemented a new operating procedure to ensure income eligibility is completed, verified,
reviewed, and on file for aJ1 volunteers prior to service. LCSNW utilizes the updated "Senior
Companion Application and Eligibility Form" (Attachment C). Income is verified and
approved by program staff prior to service. LCSNW utilizes the aforementioned "Checklist
of Materials Completed by Senior Companions" (Attachment A) and "File Checklist"
(Attachment B), which are completed by SCP and reviewed by program staff, to con finn
initial documents are completed and on file prior to service. Document dates are entered into
the database for tracking and monitoring. Documents in the file are also checked annually
during peer case file reviews using the "File Checklist."




LCSNW Comments on Official Draft Report                                           Page I of4
Audit for Corporation Grants Awarded to LCSNW
Finding 3. SCP volunteers did not have criminal background checks performed prior
to service.

Recommendation: The Auditor recommends that LCSNW receive criminal background
checks for all SCP volunteers prior to their start of service.

LCSNW's Response:
LCSNW concurs with the audit finding and recommendation. On July 1, 2009, LCSNW
implemented a new operating procedure to ensure all volunteers have a criminal background
check completed through our agency process, results are reviewed, and documents on file for
all volunteers prior to service. LCSNW utilizes the aforementioned "Checklist of Materials
Completed by Senior Companions" (Attachment A) and "File Checklist" (Attachment B),
which are completed by SCP and reviewed by program staff, to confirm initial documents are
completed and on file prior to service. Document dates are entered into the database for
tracking and monitoring. Documents in the file are also checked annually during peer case
file reviews using the "File Checklist."


Finding 4. SCP volunteers did not have volunteer assignment plans.

Recommendation: The Auditor recommends that LCSNW develop written volunteer
assignment plans for all SCP Volunteers and that these plans adhere to program
requirements.

LCSNW's Response:
LCSNW concurs with the audit finding and recommendation. On July 1,2009, LCSNW
implemented a new operating procedure to ensure the development of written volunteer
assignment plans for all SCP volunteers that adhere to program requirements using the
updated "Assignment Plan for a Senior Companion" form (Attachment D). All stations have
been trained to complete the Assignment Plan and submit the plan to the Program Director
for approval. The Assignment Plans are now reviewed on a semi-annual basis instead of
annually. The "Memorandum of Understanding" (MOU) form (Attachment E) has been
reviewed and updated for clarification of Assignment Plans.


Finding 5. In some instances, SCP volunteers did not serve a minimum of 15 hours
during a week.

Recommendation: The Auditor recommends that LCSNW enforce the SCP weekly
minimum service hour requirement of 15 hours.

LCSNW's Response:
LCSNW concurs with the audit finding and recommendation. On September 21, 2009,
LCSNW implemented a new operating procedure to closely monitor volunteer hours and
those not serving a minimum of 15 hours during a week will have the reasons documented in


LCSNW Comments on Official Draft Report                                          Page 2 of 4
Audit for Corporation Grants Awarded to LCSNW
their volunteer file. Specific reasons, such as illness, hospitalization, vacation, and client or
station issues, that impact hours served per week will be documented and monitored by
program staff. Recruitment materials and infomlation sessions reiterate the IS-hour
minimum. Prospective volunteers receive a "Thank you for your interest in serving" letter
(Attachment F), and it notes in the first paragraph the minimum hours to be served per week.


Finding 6. LCSNW did not maintain proper documentation for SCP volunteer stations.

Recommendation: The Auditor recommends that LCSNW develop volunteer station
documentation that adheres to program requirements.

LCSNW's Response:
LCSNW concurs with this audit finding and recommendation. On September 21,2009,
LCSNW implemented a new operating procedure to ensure that volunteer station records
contain at a minimum, a current and signed MOU, Letters Of Agreement for in-home
assignments, a list by name of the Senior Companions placed with the volunteer station, and
any miscellaneous correspondence.


Finding 7. RSVP volunteers did not complete and sign volunteer contracts.

Recommendation: The Auditor recommends that LCSNW develop a RSVP volunteer
contract for volunteers to sign confirming that they agree to abide by RSVP requirements.

LCSNW's Response:
LCSNW concurs with the audit finding and recommendation. On January 7, 2010, LCSNW
implemented a new operating procedure to ensure that RSVP volunteers confirm in writing
that they agree to abide by RSVP requirements. Volunteers sign the "Acknowledgement &
Receipt" foml (Attachment G) as evidence they agree to adhere to all RSVP policies and
rules. This form is taken from the acknowledgement and receipt form LCSNW currently
uses for new staff upon receipt of information contained in LCSNW's personnel handbook.
We have adapted the form for use in the RSVP program, and it is included with the RSVP
Volunteer Handbook. Our Vice President of Human Resources reviewed and approved this
RSVP form and the RSVP Volunteer Handbook on January 7, 2010.


Finding 8. AmeriCorps member service hours did not meet the minimum amount
required to receive an education award.

Recommendation: The Auditor recommends that the Corporation:
8a. recover the questioned education awards and accrued interest of $14,450.
8b. assuming LCSNW and USCRI receive another Corporation grant, it develops controls to
    ensure that member time is documented and approved and that only members who
    complete required service hours receive an education award.



LCSNW Comments on Official Draft Report                                                Page 3 of 4
Audi t for Corporation Grants Awarded to LCSNW
LCSNW's Response:
8a. LCSNW does not concur with the audit recommendation. LCSNW does not authorize
    education awards and issued no monies to AmeriCorps members. As stated in the report,
    LCSNW sent timesheets to USCRI in accordance with the contract we had with USCR!.
    We have discussed the audit findings with officials at USCRI and those officials have
    stated in writing that all four members met the 1700 service hour requirement. LCSNW
    is not the appropriate party for recovery of funds it never authorized or issued.

8b. LCSNW will work with the Corporation to ensure our responsibilities and practices in
    regard to member time are compliant with AmeriCorps requirements.



A TT ACHMENTS
The following attachments, referenced in the comments and responses above, were provided
to the OIG Auditor and the Corporation under separate cover:

Attachment A, SCP, Checklist of Materials Completed by Senior Companions (fonn)
Attachment B, SCP, File Checklist (fonn)
Attachment C, SCP, Senior Companion Application and Eligibility Fonn
Attachment D, SCP, Assignment Plan for a Senior Companion (fonn)
Attachment E, SCP, Memorandum of Understanding (fonn)
Attachment F, SCP, Applicant Letter (fonn)
Attachment G, RSVP, Acknowledgement & Receipt (fonn)




LCSNW Conunents on Official Draft Report                                         Page 4 of 4
Audit for Corporation Grants Awarded to LCSNW
             APPENDIX B

CORPORATION’S RESPONSE TO AUDIT REPORT
                                  NATIONAL&:
                                  COMMUNITY
                                  SERVICE
                                            /17
To:              Stuarj Axenfeld, Insp to. /General
                     ~.?                     .
                                                    for Audit

From:          ~·~?e(.'f~€ttf?m",~re~-tof~t6r~s
                    ~ -     ,              !' Management
Date:            Fe~ 23,2010 (revises initial ~SPO~diStributed February 12, 2010)
                    '"                              ~J
Subject:         Response to OIG Draft of Audit of Grants Awarded to the Lutheran Community
                 Services Northwest


Thank you for the opportunity to review the Office of the Inspector General draft audit report of
the Corporation's grants awarded to the Lutheran Community Services Northwest (LCSNW).
The Corporation reviewed the OIG report, met with the auditors and the grantee and reviewed
the LCSNW response to the draft audit. Weare addressing all eight draft findings at this time.

The Corporation concurs with Findings 1 through 7 and will work with LCSNW to implement
the associated recommendations. The Corporation concurs with Finding 8, but declines to accept
the monetary recommendation presented by the OIG until further clarification is provided by the
National Service Trust. Our response to each finding and recommendation is described below.
To ensure completion of corrective action on all of the recommendations, the Corporation will
brief the appropriate program and grants staff on the required corrective actions so they can
verify implementation by April 2010 as part of their oversight responsibilities.

Finding 1. SCP volunteers did not have physical examinations performed prior to service.

The auditors recommend the Corporation require LCSNW to receive physical examination
results for all SCP volunteers prior to their start of service

      Corporation Response: LCSNW has implemented a new operating procedure to ensure
      physical examinations are performed and on file for all volunteers prior to service. The
      Corporation reviewed the File Checklist and forms LCSNW developed to incorporate this
      requirement in its annual peer case file reviews and discussed the corrective action plan with
      LCSNW. The LCSNW action is responsive to the audit findings and recommendation, but
      LCSNW must issue a written operating procedure prior to the April 2010 oversight review by
      CNCS staff.

Finding 2. SCP volunteers did not have income verifications performed prior to service.

The auditors recommend that the Corporation require LCSNW to receive income verification for
all SCP volunteers prior to their start of service.

      Corporation Response: LCSNW has implemented a new operating procedure to ensure
      income eligibility is completed, verified, reviewed by program staff, and on file for all
Response to OIG Draft Audit - Lutheran Community Services Northwest


   volunteers prior to service. The Corporation reviewed the File Checklist and forms LCSNW
   developed to incorporate this requirement in its annual peer case file reviews. The
   Corporation discussed the corrective action plan with LCSNW and finds the action
   responsive to the audit findings and recommendation. LCSNW must issue a written
   operating procedure prior to the April 2010 oversight review by CNCS staff.

Finding 3. SCP volunteers did not have criminal background checks performed prior to service.

The auditors recommend the Corporation require LCSNW to receive criminal background
checks for all SCP volunteers prior to their start of service.

   Corporation Response: The Corporation agrees with the intent of the recommendation but
   notes that the Statewide Criminal History Check component of the criminal background
   check may occur after the start of service so long as the volunteer is supervised by an
   individual who has had a completed check performed. LCSNW has implemented a new
   operating procedure to ensure criminal background checks are performed, results are
   reviewed and on file for all volunteers prior to service. The Corporation reviewed the File
   Checklist completed by Senior Companions and reviewed by program staffto confirm
   required documents are completed and on file prior to service. The checklist addresses the
   recommendation, but LCSNW must issue a written operating procedure prior to the April
   2010 oversight review by CNCS staff.

Finding 4. SCP volunteers did not have volunteer assignment plans

The auditors recommend that the Corporation require LCSNW to develop written volunteer
assignment plans for all SCP Volunteers and that these plans adhere to program requirements.

   Corporation Response: LCSNW has implemented a new operating procedure to ensure
   written volunteer assignment plans are developed for all SCP volunteers in compliance with
   program requirements. The Corporation has discussed the operating procedure with LCSNW
   and reviewed an updated form LSCNW uses to assist in completing the plan which must be
   submitted to the Program Director for approval. The assignment plans are reviewed on a
   semi-annual basis and the Memorandum of Understanding that the grantee establishes with
   placement sites incorporates assignment plans. LCSNW has stated that it has trained all
   stations on the requirements for assignment plans. The Corporation will verify adequate
   training has been conducted and confirm corrective action is complete as part of the April
   2010 oversight review

Finding 5. In some instances, SCP volunteers did not serve a minimum of 15 hours during
a week.

The auditors recommend that the Corporation require LCSNW enforce the SCP weekly
minimum service hour requirement of 15 hours.

   Corporation Response: LCSNW has implemented a new operating procedure to ensure
   volunteer hours are monitored to enforce the IS-hour requirement. When the IS-hour
Response to OIG Draft Audit - Lutheran Community Services Northwest


   requirement is not met the reasons must be documented in the volunteer file by program
   staff. The hour requirement is now stressed to volunteers in recruitment materials and
   information sessions. The Corporation discussed the corrective action plan with LCSNW
   and finds the action responsive to the audit findings and recommendation, but LCSNW must
   issue a written operating procedure prior to the April 2010 oversight review by CNCS staff.

Finding 6. LCSNW did not maintain proper documentation for SCP volunteer stations.

The auditors recommend that the Corporation ensure that LCSNW develops volunteer station
documentation that adheres to program requirements.

   Corporation Response: LCSNW has implemented a new operating procedure to ensure
   volunteer station records include the current Memorandum of Understanding, Letters of
   Agreement for in-home assignments, and a list by name of the Senior Companions placed
   with the volunteer station. The Corporation will obtain a written operating procedure; review
   the previously provided associated documents for adequacy; and confirm corrective actions
   is completed during the April 201 0 oversight review by CNCS staff.

Finding 7. RSVP volunteers did not complete and sign volunteer contracts.

The Auditors recommend that the Corporation require LCSNW to develop a RSVP volunteer
contract for volunteers to sign confirming that they agree to abide by RSVP requirements.

   Corporation Response: LCSNW has implemented a new operating procedure to ensure'
   RSVP volunteers confirm in writing that they agree to abide by RSVP requirements. The
   procedure uses a volunteer acknowledgement and receipt form and is incorporated into the
   RSVP Volunteer Handbook. The Corporation will obtain a written operating procedure;
   review the previously provided associated documents for adequacy and confirm corrective
   action is complete during the April 2010 oversight review by CNCS staff.

Finding 8. AmeriCorps member service hours did not meet the minimum amount required
to receive an education award.

The audit draft states LCSNW receives its AmeriCorps grant from the U.S. Committee for
Refugees and Immigrants (USCRI). The auditors' review oftimesheets disclosed that three of
the four AmeriCorps members serving at LCSNW during program year 2006-2007 did not meet
the required amount of service hours to receive an education award. Accordingly, the auditor
questioned the full time awards for three members and the accrued interest award for one of the
members ($14,175 + $275 = $14,450).

LCSNW officials stated to the auditor at the exit conference that they are a sub grantee ofUSCRI
and their responsibility is only to ensure that the AmeriCorps members are serving the hours
recorded on their timesheets. LCSNW sends timesheets to USCRI, which pays the member's
living allowance and also certifies that the member has completed the necessary service hours to
qualify for an education award.
Response to OIG Draft Audit - Lutheran Community Services Northwest


The auditors recommend that the Corporation:

8a. recover the questioned education and accrued interest awards of $14,450,

8b. assuming LCSNW and USCRI receive another Corporation grant, it develops controls to
ensure that member time is documented and approved and that only members who complete
required service hours receive an education award.

      Corporation Response: As noted above, the Corporation declines to accept the monetary
      recommendation until it has completed its review of the agreement between LCSNW and
      USCRI, the timesheets for the questioned members and the certification documents presented
      to the Trust. We will then resolve the questioned costs with USCRI as the grantee for the
      three questioned members. During that process, we will determine if the education awards
      were properly or improperly certified. In accordance with Corporation policy, the members
      will be held harmless and a debt will be established to the responsible party to reimburse the
      National Service Trust by April 2010, if appropriate.

       In regards to recommendation 8b, if LCSNW or USCRI decides to apply for an AmeriCorps
      grant directly, the Corporation will ensure proper procedures are in place to result in
      compliant timekeeping practices and that responsibilities for member certification for awards
      are clearly delineated. However, neither organizations have active grants with the
      Corporation and we are not aware of plans to apply at this time.

cc:      William Anderson, Acting Chief Financial Officer
         Frank Trinity, General Counsel
         Kristin McSwain, Director of AmeriCorps
         Bridgette Roy, Audit Resolution Coordinator
